         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Evaluation Report

The Federal Energy Regulatory
Commission's Unclassified
Cyber Security Program—2005




DOE/IG-0704                            October 2005
REPORT ON THE FEDERAL ENERGY REGULATORY
COMMISSION'S UNCLASSIFIED CYBER SECURITY PROGRAM -
2005

TABLE OF
CONTENTS


    Cyber Security Program

    Details of Finding ..........................................................................................................1

    Recommendations and Comments.................................................................................4


    Appendices

    1. Objective, Scope, and Methodology.........................................................................6

    2. Related Audit Reports...............................................................................................8
CYBER SECURITY PROGRAM

Program               During our evaluation, we noted that the Federal Energy
Improvements          Regulatory Commission (Commission) had taken steps to
                      strengthen its cyber security program and implemented
                      countermeasures to reduce network vulnerabilities
                      addressed in our previous evaluation reports. Specifically,
                      the Commission improved the Continuity of Operations
                      Plan and system-specific disaster recovery plans. In
                      addition, a System Development Life Cycle manual was
                      developed and finalized to ensure that all information
                      technology systems support Federal statutes and the
                      Commission's business and strategic objectives.

Risk Management and   Despite a number of improvements in cyber security
Control Procedures    related policies and procedures, we observed that
                      implementation activities by Commission staff were not
                      always completely effective. Specifically, we identified
                      weaknesses in the areas of system access and configuration
                      controls. We also noted problems with the use and
                      effectiveness of the Plan of Action and Milestones
                      (POA&M) report used to track needed cyber security
                      corrective actions.

                                            Access Controls

                      We noted that controls over passwords were not always
                      effectively implemented. Passwords used in conjunction
                      with user identifications are a critical element of computer
                      security as they provide the basis for controlling access and
                      establishing accountability by identifying and
                      authenticating users. Our testing revealed that easily
                      guessed, blank, or default passwords existed on a few of the
                      Commission's systems. This condition was contrary to the
                      Commission's policy that passwords must be, among others
                      things, unique, difficult to guess, and a minimum length.
                      When informed of the problems we discovered, site
                      officials took action to resolve many of the identified
                      weaknesses.

                                      Configuration Management

                      We also observed several configuration management
                      problems that, if exploited, had the potential to permit
                      penetration or unauthorized use of the Commission's
                      systems. Proper application of configuration management
                      ensures that the system in operation is the correct version of


________________________________________________________________
Page 1                                            Details of Finding
                      the system and that any changes to be made are reviewed
                      for security implications. Vulnerability scanning disclosed
                      several instances of outdated versions of software with
                      known security vulnerabilities that had not been properly
                      updated. These tests also revealed that improperly
                      configured system servers provided higher-level privileges
                      to users than was necessary for them to perform their
                      duties. As noted in guidance developed by the National
                      Institute of Standards and Technology, individuals should
                      generally be provided with the least privileged access
                      consistent with their assigned duties to help minimize the
                      risk of unauthorized or malicious use.

                                     Plan of Action and Milestones

                      We also found that cyber security weaknesses were not
                      always adequately identifiable in the POA&M report.
                      During Fiscal Year (FY) 2005, the Commission completed
                      testing on its Continuity of Operations and Disaster
                      Recovery Plans for all major applications and its general
                      support system. As a result of that testing, several
                      weaknesses were identified; however, the POA&M entry
                      describing those findings lacked specific and easily
                      identifiable information. Specifically, 20 weaknesses were
                      consolidated into one entry that referenced "all findings in
                      the disaster recovery test reports." This method does not
                      allow for individual prioritization and allocation of
                      resources, nor does it track system owner accountability as
                      required by Office of Management and Budget guidance.

                      In addition, we found five other instances where risks noted
                      in the FY 2004 and FY 2005 certification and accreditation
                      (C&A) process were not clearly identifiable in the
                      POA&M. In January 2004, for example, the Commission
                      reported a weakness that a major application lacked a
                      comprehensive disaster recovery plan. Despite its
                      importance, this weakness was assigned a low risk and was
                      grouped together with other weaknesses into a summary
                      entry that described "technical difficulties in meeting
                      recovery points and time objectives" in the POA&M report.
                      Although the weakness had not been corrected as required,
                      full recertification and accreditation (authority to operate)
                      was granted in June 2005, and will remain effective until
                      June 2008. Even though this weakness was aggregated



________________________________________________________________
Page 2                                            Details of Finding
                      with others and given a high priority level in the POA&M
                      report, it has remained unresolved since it was identified in
                      January 2004.

Program               Vulnerabilities existed because compliance evaluations
Implementation        had not been consistently performed as required by
                      Federal and organization-specific security directives.
                      Cyber security personnel had not conducted examinations
                      at regular intervals to determine whether systems were
                      operating according to current security requirements. Also,
                      enforcement of password policy was not always maintained
                      through system audits and monitoring. Commission
                      officials also had not performed compliance evaluations,
                      using manual and automated password auditing and
                      cracking techniques, at regular intervals.

                      The Commission implemented a number of compensating
                      controls to mitigate the risk of external threats but may not
                      have focused sufficient attention on potential threats by
                      insiders. Specifically, vulnerable systems residing on the
                      internal network were secured behind a firewall that limited
                      access to specific services from external sources. Also,
                      intrusion detection systems that continually monitored both
                      the perimeter and the internal site networks for detection
                      and analysis of intrusions were in place and operational.
                      While generally effective against external threats, these
                      practices do not reduce the insider risk associated with the
                      poor access controls or configuration management
                      problems we observed. Internal users, recognized to be a
                      substantial risk to both Federal and commercial
                      organizations, could take advantage of such weaknesses
                      and damage the Commission's critical systems. To the
                      organization's credit, when we informed site personnel of
                      the problems they took immediate corrective action.

Operational Impacts   Although the Commission's overall cyber security
                      posture had improved, information resources remain
                      vulnerable. The problems we observed placed the
                      Commission at risk of unauthorized access, use, disclosure,
                      destruction, modification, or disruption of its information,
                      operations, and assets. For instance, weak or nonexistent
                      passwords could potentially allow unauthorized access to
                      database and other system servers. Furthermore,
                      continuing to report weaknesses in the current method may
                      hinder the Commission's effort to effectively manage its
                      security problems.

________________________________________________________________
Page 3                                            Details of Finding
RECOMMENDATIONS      Weaknesses identified during the course of our evaluation
                     were discussed with Commission officials and actions were
                     taken to resolve certain identified problems. To further
                     improve cyber security within the Commission, we
                     recommend that the Chairman require responsible officials
                     to:

                          1. Conduct compliance evaluations (such as system
                             audits and monitoring) at regular intervals to
                             determine whether systems are operating
                             according to current security requirements, which
                             include (a) the actions of people who operate or
                             use the system and (b) the functionality of
                             technical controls; and,

                          2. Include identifiable information for each
                             significant cyber security weakness in the
                             POA&M report thereby ensuring the prioritization
                             of corrective actions, establishment of milestones,
                             and allocation of resources to effectively address
                             security weaknesses.


MANAGEMENT           Management generally concurred with our findings and
REACTION             recommendations and agreed to work toward resolving
                     them using a risk-based approach. Management noted,
                     however, that the scope of non-compliant passwords was
                     limited to non-domain accounts. Management stated that
                     the vast majority of accounts were compliant with
                     Commission policy, but agreed that action should be taken
                     to address reported problems.

                     Management also indicated that identified risks are tracked
                     in the POA&M and detail on these risks may be included
                     therein or in other supporting documentation. Management
                     pointed out that items are not closed out in the POA&M
                     until all risks pertinent to the items are addressed. While
                     management acknowledged issues described in the report
                     relating to the POA&M, they believed that there were only
                     limited examples where items did not directly reference
                     supporting documentation.




________________________________________________________________
Page 4                              Recommendations and Comments
AUDITOR COMMENTS     Management's comments and proposed actions are
                     generally responsive to our findings and recommendations.
                     While we acknowledge that the password weaknesses we
                     found were limited to a few of the Commission's systems,
                     when considered in totality, the issues addressed in our
                     report point to a need to focus on the more timely
                     identification and correction of weaknesses. This need is
                     emphasized by the fact that our testing of the Commission's
                     systems, network devices, workstations and servers,
                     revealed various problems associated with access controls
                     and/or configuration management. As previously noted,
                     any of these weaknesses could have been exploited by
                     malicious users to inflict damage to systems or data
                     important to the Commission and to the regulated
                     community.

                     We also observed that the POA&M appears to be used
                     appropriately in many instances. It should be noted,
                     however, that the lack of detail we describe in the report
                     involved weaknesses or problems with all five of the
                     Commission's major application systems and the general
                     support system. The omission of details from tracking
                     reports could have affected the Commission's ability to
                     ensure appropriate visibility over these risks.



.




________________________________________________________________
Page 5                                                 Comments
Appendix 1

OBJECTIVE             In accordance with the Federal Information Security
                      Management Act of 2002 (FISMA) requirement that the
                      Office of Inspector General (OIG) perform an annual
                      independent evaluation, our objective was to assess the
                      Federal Energy Regulatory Commission's (Commission)
                      adequacy and effectiveness of information security
                      policies, procedures, and practices, and compliance with
                      the requirements of FISMA.


SCOPE                 The evaluation was performed between July and
                      September 2005 at the Commission in Washington, DC.
                      Specifically, we performed an evaluation of the
                      Commission's FY 2005 unclassified cyber security
                      program. The evaluation included a review of general and
                      application controls in areas such as entity-wide security
                      planning and management, access controls, application
                      software development and change controls, and service
                      continuity. Our work did not include a determination of
                      whether vulnerabilities found were actually exploited and
                      used to circumvent existing controls.


METHODOLOGY           To assess the adequacy and effectiveness of the
                      Commission's information security policies and practices,
                      we:

                             •   Reviewed Federal statutes and guidance
                                 applicable to ensuring the effectiveness of
                                 information security controls over information
                                 resources supporting Federal operations and
                                 assets such as FISMA guidance and Circular
                                 A-130 Appendix III, and National Institute of
                                 Standards and Technology (NIST) standards
                                 and guidance;

                             •   Reviewed the Commission's overall cyber
                                 security program to evaluate the adequacy and
                                 effectiveness of information security policies,
                                 procedures, and practices, and compliance with
                                 the requirements of FISMA;

                             •   Assessed controls over network operations to
                                 determine the effectiveness related to
                                 safeguarding information resources from
                                 unauthorized internal and external sources;

________________________________________________________________
Page 6                             Objective, Scope, and Methodology
Appendix 1 (continued)

                             •   Evaluated the Commission in conjunction with
                                 its annual audit of the Financial Statements,
                                 utilizing work performed by KPMG LLP
                                 (KPMG), the OIG's contract auditor. KPMG's
                                 efforts included analysis and testing of general
                                 and application controls for systems as well as
                                 vulnerability scanning and penetration testing of
                                 networks; and,

                             •   Analyzed OIG reports issued between 2002
                                 through 2004 and reviewed other audits and
                                 evaluations performed by the Government
                                 Accountability Office (GAO) and OMB.

                      We evaluated the Commission's implementation of the
                      Government Performance and Results Act related to the
                      establishment of performance measures for unclassified
                      cyber security. We did not rely solely on computer-
                      processed data to satisfy our objectives. However,
                      computer assisted audit tools were used to perform probes
                      of various networks and devices. We validated the results
                      of the scans by confirming the weaknesses disclosed with
                      Commission officials and performed other procedures to
                      satisfy ourselves as to the reliability and competence of the
                      data produced by the tests.

                      The evaluation was conducted in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy our objective. Accordingly, we
                      assessed internal controls regarding the development and
                      implementation of automated systems. Because our review
                      was limited, it would not necessarily have disclosed all
                      internal control deficiencies that may have existed at the
                      time of our evaluation.

                      An exit conference was held with Commission officials on
                      October 4, 2005.




________________________________________________________________
Page 7                             Objective, Scope, and Methodology
Appendix 2

                           RELATED AUDIT REPORTS


  •   Information Security: Weaknesses Persist at Federal Agencies Despite Progress
      Made in Implementing Related Statutory Requirements (GAO/05-552, July 2005).
      GAO reported that overall, the government is making progress in its
      implementation of FISMA. However, as reported pervasive weaknesses in the 24
      major agencies' information security policies and practices threaten the integrity,
      confidentiality, and availability of Federal information and information systems.
      Access controls were not effectively implemented; software change controls were
      not always in place; segregation of duties was not consistently implemented;
      continuity of operations planning was often inadequate; and security programs
      were not fully implemented at the agencies. These weaknesses exist primarily
      because agencies have not yet fully implemented strong information security
      management programs and put federal operations and assets at risk of fraud,
      misuse, and destruction. In addition, they place financial data at risk of
      unauthorized modification or destruction, sensitive information at risk of
      inappropriate disclosure, and critical operations at risk of disruption.

  •   Evaluation Report: The Department's Unclassified Cyber Security Program 2004
      (DOE/IG-0662, September 2004). While actions taken to improve its unclassified
      cyber security program are commendable, problems continue to exist in the
      Department of Energy's classified cyber security program that, if uncorrected,
      could expose critical systems to compromise. As reported, the Department had
      not completed implementation of a comprehensive risk management program.

  •   Evaluation of the Federal Energy Regulatory Commission's Cyber Security
      Program 2004 (OAS-L-04-21, September 2004). Despite making improvements
      in its unclassified cyber security program, the Commission had not completed
      contingency planning, risk management, and certification and accreditation of
      systems. Although the Commission used the NIST risk assessment methodology
      as required by FISMA, it had yet to finalize a risk assessment methodology
      tailored to its needs-a key step in determining current security vulnerabilities
      within an organization and implementing mitigating controls. Additionally, at the
      time of the evaluation the Commission had only completely tested one of its five
      system-level contingency plans. Successful completion of these ongoing
      initiatives should help correct remaining cyber security problems at the
      Commission.

  •   Audit Report: Management of the Federal Energy Regulatory Commission's
      Information Technology Program (DOE/IG-0652, June 2004). The audit
      disclosed that while action had been initiated to improve the management of its
      information technology (IT) program, the Commission's critical e-Government
      development efforts suffered from incomplete project cost estimates, schedule
      slippages or faced premature obsolescence. The Commission had not prepared an
      enterprise architecture to integrate business processes and organizational goals

________________________________________________________________
Page 8                                        Related Audit Reports
Appendix 2 (continued)

      with IT. Without improvement, the Commission risks incurring unnecessary
      costs for systems that face premature obsolescence because they do not meet user
      needs or satisfy mission requirements. In the FY 2005 budget request, the
      Commission included a performance goal to complete an enterprise architecture
      by October 2004.

  •   Evaluation of The Federal Energy Regulatory Commission's Cyber Security
      Program 2003 (OAS-L-03-21, September 2003). The evaluation of the
      Commission's unclassified cyber security program reported that significant
      progress was made in resolving weaknesses reported during the 2002 evaluation.
      However, plans for maintaining or resuming critical operations in the event of an
      emergency or disaster had not been completed.

  •   Evaluation Report: The Federal Energy Regulatory Commission's Unclassified
      Cyber Security Program 2002 (DOE/IG-0569, September 2002). The evaluation
      of the Commission's unclassified cyber security program reported that while a
      number of protective measures had been implemented, certain critical information
      systems remained at risk. Cyber protection efforts suffered from program
      management, planning, and execution weaknesses.




________________________________________________________________
Page 9                                        Related Audit Reports
                                                             IG Report No. DOE/IG-0704

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
                                               and cost
effective as possible. Therefore, this report will be available electronically through the Internet at
                                       the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                    http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
